                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

    Case Number: A06050016
                                                                                    11          Page 1 of 1
                                                                                                                   11
                 During a review of REU site awards for compliance with human subject regulations and
          animal welfare policies, we identified an award1that potentially involved vertebrate animal research.
           Based on the award proposal and annual reports for the award, it appeared that students would be
          working with vertebrate animals. Upon review of the award cover page, it was apparent that the
          vertebrate animal box was not checked. When we contacted the in~titution,~     it reported that it had
          the appropriatg.IACUC approvals for the individual projects involving vertebrate animals but lacked
          the multi-project assurance approved by OLAW or an NSF single-project assurance.

                  We then notified the institution of the NSF policy regarding vertebrate animal research found
          in section 713 of the NSF Grant Proposal Manual:

                    Prior to the issuance of an award for a project involving use of vertebrate
                    animals, the project must be approved by an Institutional Animal Care and Use
                    Committee (IACUC) established through a multi-project assurance with the
                    [OLAW] of the NIH, or else through a single-project assurance approved by
                    the NSF. (Emphasis added)

                 At our suggestion, the institution voluntarily suspended work under the award involving
          vertebrate animals until they had received a single-project assurance fkom NSF. Upon receipt, of the
          single-project assurance, the university resumed vertebrate animal work associated with the award.

~               We are satisfied that the institution has taken the appropriate steps toward compliance with
          NSF policies.
                                                                                                                   111

          Accordingly, this case is closed.




          ' Redacted.
           Redacted.                                                                           ,-,




NSF OIG Form 2 (1 1/02)
